September 27, 2021

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re: Kennedy v. Bremerton School District, No. 21-418
Dear Mr. Harris:
Respondent Bremerton School District gives blanket consent to the filing of amicus
briefs in support of petitioner, respondent, or neither party in this matter, as long as
the briefs comply with the Court’s Rules, including the notice provision of Rule 37.2(a).
Sincerely,

Richard B. Katskee
Counsel for Respondent
katskee@au.org
cc: Counsel for Petitioner

